No. 20-1009
IN THE

Supreme Court of the United States
DAVID SHINN, ET AL.,
Petitioners,
v.
DAVID MARTINEZ RAMIREZ & BARRY LEE JONES,
Respondents.

CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the bar of this Court and
that the Brief for Jonathan F. Mitchell and Adam K. Mortara as Amici Curiae in
Support of Petitioners contains 3,346 words and complies with the word limitation
established by Rule 33.1(g)(xii) of the Rules of this Court.
Dated: July 22, 2021

Elizabeth A. Kiernan

